     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


 Information Technology Management Letter for the 

     FY 2013 Department of Homeland Security’s 

             Financial Statement Audit





OIG-14-94                                  May 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov



                                    May16,2014

MEMORANDUMFOR:            LukeMcCormack
                             ChiefInformationOfficer

                             TheHonorableChipFulghum
                             ActingChiefFinancialOfficer

FROM:                       RichardHarsche
                             ActingAssistantInspectorGeneral
                             OfficeofInformationTechnologyAudits

SUBJECT:	                   InformationTechnologyManagementLetterfortheFY
                             2013DepartmentofHomelandSecurity’sFinancial
                             StatementAudit

Attachedforyourinformationisourfinalreport,InformationTechnologyManagement
LetterfortheFY2013DepartmentofHomelandSecurity’sFinancialStatementAudit.
Thisreportcontainscommentsandrecommendationsrelatedtoinformation
technologyinternalcontroldeficienciesthatwerenotrequiredtobereportedinthe
IndependentAuditors’Report.

WecontractedwiththeindependentpublicaccountingfirmKPMGLLP(KPMG)to
conducttheauditofDepartmentofHomelandSecurityfiscalyear2013consolidated
financialstatements.ThecontractrequiredthatKPMGperformitsauditaccordingto
generallyacceptedgovernmentauditingstandardsandguidancefromtheOfficeof
ManagementandBudgetandtheGovernmentAccountabilityOffice.KPMGis
responsiblefortheattachedmanagementletterdatedMarch11,2014,andthe
conclusionexpressedinit.

Pleasecallmewithanyquestions,oryourstaffmaycontactSharonHuiswoud,Director,
InformationSystemsAuditDivision,at(202)254Ͳ5451.

Attachment

	                           






                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




March 11, 2014


Inspector General,
Chief Information Officer and
Chief Financial Officer
U.S. Department of Homeland Security

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we considered
internal control over financial reporting (internal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements. In conjunction with
our audit of the financial statements, we also performed an audit of internal control over financial
reporting in accordance with attestation standards issued by the American Institute of Certified Public
Accountants.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
December 11, 2013, included internal control deficiencies identified during our audit that, in aggregate,
represented a material weakness in information technology (IT) controls and financial system
functionality at the DHS Department-wide level.

During our audit we noted certain matters involving internal control and other operational matters that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and communicated through Notices of
Findings and Recommendations (NFRs), are intended to improve internal control or result in other
operating efficiencies and are summarized as described below.

With respect to DHS’ and components’ financial systems’ IT controls, we noted certain matters in the
areas of security management, access controls, configuration management, segregation of duties, and
contingency planning. These matters are described in the Findings and Recommendations section of
this letter.

The Table of Contents identifies each section of the letter. We have provided a description of key DHS
financial systems and IT infrastructure within the scope of the FY 2013 DHS financial statement audit
in Appendix A, and a listing of each IT NFR communicated to management in Appendix B.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
During our audit we noted certain matters involving financial reporting internal controls (comments not
related to IT) and other operational matters, including certain deficiencies in internal control that we
consider to be significant deficiencies and material weaknesses, and communicated them in writing to
management and those charged with governance in our Independent Auditors’ Report and in a separate
letter to the Office of Inspector General and the DHS Chief Financial Officer.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of DHS’ organization gained during our work to make comments and suggestions that we hope will be
useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

DHS’ response to the deficiencies identified in our audit is described in page 10 of this letter. DHS’
response was not subjected to the auditing procedures applied in the audit of the financial statements
and, accordingly, we express no opinion on the response.

The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.

Very truly yours,
                                 Department of Homeland Security
                      Consolidated Information Technology Management Letter
                                        September 30, 2013


                                     TABLE OF CONTENTS

                                                                                            Page
Objective, Scope, and Approach                                                               2

Summary of Findings                                                                          4

Findings and Recommendations                                                                 6

   Deficiencies Related to GITCs                                                             6

   Deficiencies Related to Financial Systems Functionality                                   7

   Cause/Effect                                                                              8

   Recommendation                                                                            9

Management Response                                                                          10


                                           APPENDICES

Appendix                                       Subject                                      Page
           Description of Key Financial Systems and IT Infrastructure within the Scope of    11
   A
           the FY 2013 DHS Financial Statement Audit 

   B       FY 2013 IT Notices of Findings and Recommendations at DHS                         20





                                                  1

                                   Department of Homeland Security
                        Consolidated Information Technology Management Letter
                                          September 30, 2013


                              OBJECTIVE, SCOPE, AND APPROACH 


Objective

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”). In connection with our audit of the FY 2013 financial statements, we performed an
evaluation of selected general information technology (IT) controls (GITCs) and IT application controls
at DHS Components to assist in planning and performing our audit engagement.

Scope

The scope of our GITC and IT application control test work is described in Appendix A, which provides a
description of the key DHS component financial systems and IT infrastructure by DHS Component
within the scope of the FY 2013 DHS consolidated financial statement audit.

Approach

General Information Technology Controls

The Federal Information System Controls Audit Manual (FISCAM), issued by the U.S. Government
Accountability Office (GAO), formed the basis of our GITC evaluation procedures.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control categories to be essential to the effective
operation of GITCs and the IT environment:

x   Security Management – Controls that provide a framework and continuing cycle of activity for
    managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
    of computer-related security controls.

    x   In conjunction with our test work of security management GITCs, limited after-hours physical
        security testing at select DHS Component facilities was conducted to identify potential control
        deficiencies in non-technical aspects of IT security.

x   Access Control – Controls that limit or detect access to computer resources (data, programs,
    equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

x   Configuration Management – Controls that help to prevent unauthorized changes to information
    system resources (software programs and hardware configurations) and provide reasonable assurance
    that systems are configured and operating securely and as intended.

    x   We performed technical information security testing for key DHS Component network and
        system devices. The technical security testing was performed from within select DHS facilities

                                                    2

                                   Department of Homeland Security
                        Consolidated Information Technology Management Letter
                                          September 30, 2013


       and focused on production devices that directly support DHS’ and Components’ financial
       processing and key general support systems.

x   Segregation of Duties – Controls that constitute policies, procedures, and an organizational structure
    to manage who can control key aspects of computer-related operations.

x   Contingency Planning – Controls that involve procedures for continuing critical operations without
    interruption, or with prompt resumption, when unexpected events occur.

IT Application Controls

We performed testing over selected key IT application controls on financial systems and applications to
assess the financial systems’ internal controls over the input, processing, and output of financial data and
transactions. FISCAM defines application controls as the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, or payroll.

Financial Systems Functionality

In recent years, we have noted that the DHS’ financial system functionality may be inhibiting the
agency’s ability to implement and maintain internal controls, notably IT applications controls supporting
financial data processing and reporting at some Components. At most Components, the financial systems
have not been substantially updated since being inherited from legacy agencies several years ago.
Therefore, in FY 2013, we continued to evaluate and consider the impact of financial system functionality
over financial reporting.




                                                     3

                                   Department of Homeland Security
                        Consolidated Information Technology Management Letter
                                          September 30, 2013


                                      SUMMARY OF FINDINGS

During our FY 2013 assessment of GITCs and IT application controls, we noted that the DHS
Components made progress in the remediation of IT findings we reported in FY 2012. As a result, we
closed 62 (45 percent) of the prior year IT findings which were subject to follow-up procedures in FY
2013. We also issued 32 new findings, which is a significant decrease compared to the 103 new findings
in FY 2012.

In FY 2013, we issued 103 total findings, of which approximately 69 percent are repeated from last year.
Approximately 35 percent of our repeat findings were for IT deficiencies that management represented
were corrected during FY 2013. The new findings in FY 2013 resulted both from additional IT systems
and business processes within the scope of our audit this year and from control deficiencies identified in
areas which were effective in previous years, and were noted at all DHS components. Customs and
Border Protection (CBP) and the Federal Law Enforcement Training Center (FLETC) had the greatest
number of new findings. We also considered the effects of financial system functionality when testing
internal controls and evaluating findings. Many key DHS financial systems are not compliant with the
financial management systems requirements of the Federal Financial Management Improvement Act of
1996 and Office of Management and Budget (OMB) Circular Number A-127, Financial Management
Systems, as revised. DHS financial system functionality limitations add substantially to the Department’s
challenges of addressing systemic internal control weaknesses and limit the Department’s ability to
leverage IT systems to effectively and efficiently process and report financial data.

The majority of findings resulted from the lack of properly documented, fully designed and implemented,
adequately detailed, and consistently implemented financial system controls to comply with DHS
Sensitive Systems Policy Directive 4300A, Information Technology Security Program, requirements and
National Institute of Standards and Technology guidance. The most significant weaknesses from a
financial statement audit perspective continued to include:

    1.	 Excessive unauthorized access to key DHS financial applications, resources, and facilities;
    2.	 Configuration management controls that are not fully defined, followed, or effective;
    3.	 Security management deficiencies in the areas of security authorization and role-based security
        training;
    4.	 Contingency planning that lacked current and tested contingency plans developed to protect DHS
        resources and financial applications;
    5.	 Lack of proper segregation of duties for roles and responsibilities within financial systems; and
    6.	 Ineffective IT application controls.

The conditions supporting our findings collectively limited DHS’ ability to ensure that critical financial
and operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these deficiencies negatively impacted the internal controls over DHS’ financial
reporting and its operation and we consider them to collectively represent a material weakness for DHS
under standards established by the American Institute of Certified Public Accountants and the U.S. GAO.
The IT findings were combined into one material weakness regarding IT Controls and Financial System
Functionality for the FY 2013 audit of the DHS consolidated financial statements. Specific results of

                                                     4

                                 Department of Homeland Security
                      Consolidated Information Technology Management Letter
                                        September 30, 2013


GITC and IT application controls test work is provided in separate limited distribution IT management
letters provided to component management and the Office of Inspector General.

While the recommendations made by us should be considered by DHS, it is the ultimate responsibility of
DHS management to determine the most appropriate method(s) for addressing the weaknesses identified.




                                                  5

                                  Department of Homeland Security
                       Consolidated Information Technology Management Letter
                                         September 30, 2013


                              FINDINGS AND RECOMMENDATIONS


Findings

In FY 2013, a number of IT and financial system functionality deficiencies were identified at DHS. Our
findings, which were a cross-representation of GITC and financial systems functionality deficiencies
identified throughout the Department’s Components, follow:

Deficiencies Related to GITCs

Security Management

x   Required security authorization activities and supporting artifacts for key financial systems were not
    always completed and documented.

x   Controls to monitor compliance with requirements for role-based training for personnel with
    significant information security responsibilities were not always consistently implemented, and
    documentation of individuals subject to role-based training requirements was sometimes incomplete.

x   Federal employees and contractors did not consistently adhere to DHS and Component policies,
    guidance, and security awareness training concerning the protection of sensitive assets and
    information from unauthorized access or disclosure.

Access Controls

x	 Policies and procedures for key financial applications had not been developed to identify elevated
   access at the application level.

x	 Management of application, database, network, and remote user accounts was inadequate or
   inconsistent.

x	 Safeguards over logical and physical access to sensitive facilities and resources were not always
   effective.

x	 Generation, review, and analysis of system audit logs were not always adequate or consistent.

x	 Access of authorized personnel to sensitive areas containing key financial systems was sometimes
   more than needed, and data center access controls were not properly enforced.

x	 Transferred and/or terminated employees were not always timely removed from financial systems,
   and policies related to revocation of system access were not always implemented or finalized.

Configuration Management

x	 Configuration management policies and procedures were not always documented.



                                                    6

                                   Department of Homeland Security
                        Consolidated Information Technology Management Letter
                                          September 30, 2013


x   Security patch management and configuration deficiencies were identified during the vulnerability
    assessment on the platforms supporting the key financial applications and general support systems.

x   Evidence to support authorized modifications to key financial systems was not always maintained.

x   Monitoring controls were not always implemented for key financial systems to ensure the
    completeness and integrity of records of implemented system changes.

x   Management of administrator access to move IT system code within and between environments was
    sometimes inadequate or inconsistent.

Segregation of Duties

x	 Implementation of segregation of duties for IT and financial management personnel with access to
   financial systems across several platforms was inadequate or incomplete.

Contingency Planning

x	 Service continuity plans were not always tested, and an alternate processing site was not established
   for high risk systems.

x	 Backup policies and procedures were inconsistently documented.

x	 Backup parameters were not always properly implemented or managed.

Deficiencies Related to Financial Systems Functionality

We noted many cases where financial system functionality was inhibiting DHS’ ability to implement and
maintain internal controls, notably IT application controls supporting financial data processing and
reporting. Financial system functionality limitations also contribute to other control deficiencies and
compliance findings presented in our Independent Auditor’s Report. We noted persistent and pervasive
financial system functionality conditions at all of the significant DHS Components in the following
general areas:

x	 At one Component, IT systems have unique functionality issues due to numerous variables, most of
   which were not within the control of the Component. Production versions of financial systems were
   outdated and did not provide the necessary core functional capabilities. The Component had installed
   extensive workarounds, redundant and overlapping systems, and numerous manual reconciliation
   processes, as necessary to produce auditable financial statements. Some of these workarounds and
   systems were installed as the only means to validate actual data in the various general ledgers, and
   support the financial statements. In many cases, the IT systems were not designed to allow the
   Component to install and use routine automated controls to assist with efficient, reliable, financial
   processing.

x	 At another Component, multiple financial IT systems continued to be impaired by functionality
   limitations which prevent implementation of effective security controls. These limitations, which


                                                   7

                                  Department of Homeland Security
                       Consolidated Information Technology Management Letter
                                         September 30, 2013


    principally impact audit logging controls intended to monitor logical access and configuration
    management activities, were being addressed through enterprise-wide solutions which were not fully
    implemented at the time of our audit procedures. Additionally, certain feeder systems were operating
    with outdated and unsupported system software components which exposed them to vulnerabilities
    that cannot be mitigated.

x   Several financial systems have limited capacity to process, store, and report financial and
    performance data to facilitate decision making, safeguarding and management of assets, and prepare
    financial statements that comply with Generally Accepted Accounting Principles.

x   One financial system lacked the controls necessary to prevent or detect and correct excessive
    drawback claims. Specifically, the programming logic for the system did not link drawback claims to
    imports at a detailed, line item level.

x   Technical configuration limitations, such as outdated systems that were no longer fully supported by
    the software vendors, impaired DHS’ ability to fully comply with policy in areas such as IT security
    controls, notably password management, audit logging, user profile changes, and the restricting of
    access for off-boarding employees and contractors.

x   System capability limitations prevent or restrict the use of applications controls to replace less
    reliable, more costly manual controls; or in some cases, required additional manual controls to
    compensate for IT security or control weaknesses.

x   Some IT subsidiary modules that could improve controls and reliability were not active due to various
    system design and integrity reasons.

x   Some IT system controls were not designed to prevent the receipt of goods and services in excess of
    available funding.

Cause/Effect

DHS management recognized the need to upgrade its financial systems. Until serious legacy IT issues are
addressed and updated IT solutions implemented, compensating controls and other complex manual
workarounds must support its IT environment and financial reporting. As a result, DHS’ difficulty
attesting to a strong control environment, to include effective general IT controls and reliance on key
financial systems, will likely continue.

The conditions supporting our findings collectively limit DHS’ ability to process, store, and report
financial data in a manner to ensure accuracy, confidentiality, integrity, and availability. Some of the
weaknesses may result in material errors in DHS’ financial data that were not detected in a timely manner
through the normal course of business. In addition, because of the presence of IT control and financial
system functionality weaknesses; there is added pressure on mitigating controls to operate effectively.
Because mitigating controls were often more manually focused, there is an increased risk of human error
that could materially affect the financial statements.




                                                   8

                                 Department of Homeland Security
                      Consolidated Information Technology Management Letter
                                        September 30, 2013


Recommendation

We recommend that the DHS Office of the Chief Information Officer (OCIO) and Office of the Chief
Financial Officer (OCFO), in coordination with DHS Component management, continue the Financial
Systems Modernization initiative, and make necessary improvements to the Department’s financial
management systems and supporting IT security controls.

Specific recommendations were provided in separate letters provided to DHS Component management.




                                                9

                                  Department of Homeland Security
                       Consolidated Information Technology Management Letter
                                         September 30, 2013


                                   MANAGEMENT RESPONSE


The DHS Office of Inspector General discussed our report with DHS management and reported that DHS
management concurs with the findings and recommendations described in this letter, and will continue to
work with Component management to address these issues.




                                                  10

                         Department of Homeland Security
              Consolidated Information Technology Management Letter
                                September 30, 2013




                                Appendix A 

Description of Key Financial Systems and IT Infrastructure within 

    the Scope of the FY 2013 DHS Financial Statement Audit 





                                       11

                                                                                            Appendix A

                                  Department of Homeland Security
                       Consolidated Information Technology Management Letter
                                         September 30, 2013


Below is a description of key financial management systems and supporting IT infrastructure included in
the scope of the DHS FY 2013 financial statement audit.

DHS Headquarters (Office of Financial Management / Office of the Chief Information Officer)

DHS Treasury Information Executive Repository (DHSTIER)

DHSTIER is the system of record for the DHS consolidated financial statements and is used to track,
process, and perform validation and edit checks against monthly financial data uploaded from each of the
DHS components’ core financial management systems. DHSTIER is administered jointly by the OCFO
Resource Management Transformation Office and the OCFO Office of Financial Management and is
hosted on the DHS OneNet at the Stennis Data Center in Mississippi (MS).

Customs and Border Protection (CBP)

Systems, Applications, and Products (SAP) Enterprise Central Component (ECC)

SAP is CBP’s financial system of record. SAP is a major integrated client/server-based financial
management system implemented by CBP to manage assets (e.g., budget, logistics, procurement, and
related policy) and revenue (e.g., accounting and commercial operations: trade, tariff, and law
enforcement), and to provide information for strategic decision making. The SAP instance includes several
modules (including ECC 6.0, Intelligent Procurement, and Budget Tools) that provide system functionality
for Funds Management, Budget Control, General Ledger, Real Estate, Property, Internal Orders, Sales and
Distribution, Special Purpose Ledger, and Accounts Payable functionality, among others. The SAP ECC
financial management system was included within the scope of the FY 2013 financial statement audit. The
Border Enforcement and Management Systems (BEMS) Program Office and the Enterprise Data
Management and Engineering (EDME) Program Office own the SAP application, UNIX and Windows
operating systems and Oracle database located in Virginia (VA).

Automated Commercial Environment (ACE)

ACE is the commercial trade processing system being developed and implemented by CBP to replace the
Automated Commercial System (ACS). The mission of ACE is to implement a secure, integrated,
government-wide system for the electronic collection, use, and dissemination of international trade and
transportation data essential to Federal agencies. ACE is a custom-developed, internet-facing, multi-tier
system with high availability characteristics, and it processes sensitive data. ACE is being deployed in
phases over several years. As a result, some financial modules will remain in the ACS operating
environment until they can be developed and deployed in ACE. Since ACE was partially implemented
during FY2013, it was included within the scope of the FY 2013 financial statement audit. The Cargo
Systems Program Office (CSPO), the Enterprise Networks and Technology Support (ENTS) Program
Office and the EDME Program Office own the ACE application, AIX operating system and DB2 database
located in VA.

Automated Commercial System (ACS)

ACS is a collection of seven mainframe-based sub-systems used by the CBP to track, control, and process

                                                   12

                                                                                             Appendix A

                                  Department of Homeland Security
                       Consolidated Information Technology Management Letter
                                         September 30, 2013


commercial goods and conveyances entering the United States territory, for the purpose of collecting
import duties, fees, and taxes owed to the Federal government. ACS collects duties at ports, collaborates
with financial institutions to process duty and tax payments, and provides automated duty filing for trade
clients, and shares information with the Federal Trade Commission on trade violations, illegal imports
and terrorist activities. The ACS system was included within the scope of the FY 2013 financial statement
audit. The CSPO and the ENTS Program Office own the ACS application and mainframe located in VA.

District of Columbia Metropolitan Local Area Network (DC Metro LAN)

The DC Metro LAN provides CBP’s DC area employees and contractors user access to enterprise-wide
applications and systems. The mission of the DC Metro LAN is to support the mission of CBP
operational elements in the DC Metro LAN region of the organization. The boundary of the DC Metro
LAN includes tools such as personal computers, laptop computers, printers and file/print servers which
enable CBP officers and agents to interact with all other applications and systems in the CBP
environment. The DC Metro LAN supports ACE, ACS, and SAP and provides authentication
mechanisms that are used by SAP for single sign on capability; as a result, the DC Metro LAN was
included within the scope of the FY 2013 financial statement audit. The Field Support (FS) Program
Office and the EDME Program Office own the DC Metro LAN located in VA.

United States Coast Guard (USCG or Coast Guard)

Core Accounting System (CAS)

CAS is the core accounting system that records financial transactions and generates financial statements
for the Coast Guard. CAS is hosted at the Coast Guard Finance Center (FINCEN) in VA. CAS interfaces
with the Financial and Procurement Desktop (FPD), also located at FINCEN. CAS is used by financial
management individuals as CAS is the main system of record for financial information. CAS has a
Hewlett-Packard (HP) UNIX operating system with an Oracle database, and the organizations responsible
for CAS are FINCEN, Coast Guard OCFO, and Coast Guard OCIO.

Financial Procurement Desktop (FPD)

The FPD application is used to create and post obligations to the core accounting system. It allows users
to enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the
CAS system and is located at the FINCEN in VA, and has an HP UNIX operating system and Oracle
database. The organizations responsible for CAS are FINCEN, Coast Guard OCFO, and Coast Guard
OCIO.

Joint Uniform Military Pay System (JUMPS)

JUMPS is an IBM zOS mainframe application and database that is used for paying USCG active and
reserve payroll and is mainly used by Pay and Personnel Center (PPC) employees. JUMPS is located at
the Burlington Northern Santa Fe data center in Kansas. The responsible organization for JUMPS is PPC,
which falls under the purview of the Coast Guard OCIO.


                                                   13

                                                                                                Appendix A

                                   Department of Homeland Security
                        Consolidated Information Technology Management Letter
                                          September 30, 2013


Direct Access

Direct Access is the system of record for all functionality, data entry, and processing of payroll events for
the Coast Guard. Every Coast Guard employee is a user of the system. Employees may use Direct Access
to correct their own personal information, such as address and beneficiaries. The main financial users use
Direct Access to process payroll events and change personnel records such as pay scales. Up until June
2013, Direct Access was maintained by IBM Application On Demand (IBM AOD) in the iStructure data
center facility in Arizona (AZ) with an automated backup site located in a Qwest data center in VA.
Starting in June 2013, Direct Access is maintained by Addx Corporation and is located in VA. Direct
Access is a PeopleSoft application residing on servers operating the Solaris and Windows Server 2000
operating systems and is supported by an Oracle database. The responsible organization for Direct Access
is the Office of the Chief Information Officer (OCIO).

Global Pay (Direct Access II)

Global Pay provides retiree and annuitant support services. Until June 2013, Global Pay was maintained
by IBM AOD in the iStructure data center facility in AZ with an automated backup site located in a
Qwest data center in VA. Starting in June 2013, Global Pay is maintained by Addx Corporation and is
located in VA. Global Pay is a PeopleSoft application residing on servers operating the IBM x Series
operating system and is supported by an Oracle database. The responsible organization for Global Pay is
the Coast Guard OCIO.

Naval and Electronics Supply Support System (NESSS)

NESSS is one of four automated information systems that comprise the family of Coast Guard logistics
systems. NESSS is a fully integrated system linking the functions of provisioning and cataloging, unit
configuration, supply and inventory control, procurement, depot-level maintenance and property
accountability, and a full financial general ledger. NESSS is used by both financial and logistics
personnel across numerous Coast Guard locations. NESSS is located at the Operations Systems Center
(OSC) in West Virginia, resides on servers operating the Microsoft Windows 2003 and HP/UNIX
operating systems, and is supported by an Oracle database. The responsible organizations for NESSS are
the Office of Logistics Program Management and OSC, which act under the purview of the Coast Guard
OCIO.

Aviation Logistics Management Information System (ALMIS)

ALMIS provides Coast Guard Aviation logistics management support in the areas of operations,
configuration management, maintenance, supply, procurement, financial, and business intelligence.
Additionally, ALMIS covers the following types of information: Financial, Budget, Planning, Aircraft &
Crew Status, Training & Readiness, and Logistics & Supply. The Aviation Maintenance Management
Information System, a subcomponent of ALMIS, functions as the inventory management/fiscal
accounting component of the ALMIS application. The Aircraft Repair & Supply Center Information
Systems Division in North Carolina (NC) hosts the ALMIS application. ALMIS is used by both financial
and logistics personnel across numerous Coast Guard locations. ALMIS is located at the Aviation
Logistics Center (ALC) in NC and has a HP UNIX operating system and a Haley database. The
responsible organization for ALMIS is ALC.

                                                     14

                                                                                           Appendix A

                                  Department of Homeland Security
                       Consolidated Information Technology Management Letter
                                         September 30, 2013


United States Citizenship and Immigration Services (USCIS)

Federal Financial Management System (FFMS)

The FFMS is a CFO designated financial system and certified software application that conforms to OMB
Circular A-127 and implements the use of a Standard General Ledger for the accounting of agency
financial transactions. It is used to create and maintain a record of each allocation, commitment,
obligation, travel advance and accounts receivable issued. It is the system of record for the agency and
supports all internal and external reporting requirements. FFMS is a commercial off-the-shelf (COTS)
financial reporting system, which has an IBM z/OS operating system and an Oracle database. It includes
the core system used by accountants, FFMS Desktop that is used by end-users, and a National Finance
Center (NFC) payroll interface. The FFMS mainframe component and servers are hosted at the DHS
Enterprise Data Center (DC-2) located in VA. U.S. Immigration and Customs Enforcement (ICE) is the
system owner and manages FFMS for USCIS.

USCIS Network (CIS1)

CIS1 is the Active Directory Domain Services Platform used within the USCIS that contains all of
USCIS’s Active Directory and Exchange resources. CIS1 is a part of the Enterprise Infrastructure
Services accreditation boundary and all Active Directory information, including the Active Directory
database itself, is hosted on specified servers called Domain Controllers. These 52 Active Directory
Domain Controllers are located throughout the country, with the majority of them being located in VA
and Nebraska.




                                                  15

                                                                                                Appendix A

                                   Department of Homeland Security
                        Consolidated Information Technology Management Letter
                                          September 30, 2013


Federal Emergency Management Agency (FEMA)

Integrated Financial Management Information System (IFMIS)

IFMIS is the official accounting system of FEMA and maintains all financial data for internal and
external reporting. IFMIS is comprised of five subsystems: Funding, Cost Posting, Disbursements,
Accounts Receivable, and General Ledger. The application is a COTS software package developed and
maintained by Digital Systems Group Incorporated. IFMIS interfaces with the Payment and Reporting
System (PARS), the Emergency Support System (ES), ProTrac, Smartlink (Department of Health and
Human Services [HHS]), Treasury Information Executive Repository (Department of the Treasury),
Secure Payment System (Department of the Treasury), Grants Management System (Department of
Justice), United States Coast Guard Credit Card System, Credit Card Transaction Management System
(CCTMS), Assistance to Firefighters Grants, eGrants, and Enterprise Data Warehouse and Payroll
(Department of Agriculture NFC). The IFMIS production environment is located in VA.

Payment and Reporting System (PARS)

PARS is a standalone web-based application. The PARS database resides on the IFMIS UNIX server and
is incorporated within the certification & accreditation boundary for that system. Through its web
interface, PARS collects Standard Form 425 information from grantees and stores the information in its
Oracle 9i database. Automated scheduled jobs are run daily to update and interface grant and obligation
information between PARS and IFMIS. PARS is located in VA.

Non-Disaster Grant Management System (NDGrants)

NDGrants is a web-based system that supports the grants management lifecycle and is used by external
stakeholders and grantees, via a public Web site, to apply for grants and monitor the progress of grant
applications and payments and view related reports, and by the FEMA Grants Program Directorate,
Program Support Division, via an internal Web site, for reviewing, approving, and processing grant
awards. NDGrants interfaces with two other systems: FEMA’s internal Integrated Security and Access
Control System (ISAAC), a component of the Network Access Control System used for user
credentialing and role-based access; and the HHS Grants.gov system, used for publishing grant
solicitations and downloading applications. NDGrants is located in VA.

Emergency Management Mission Integrated Environment (EMMIE)

EMMIE is an internal Web-based grants management solution used by FEMA program offices and user
communities directly involved in the grant lifecycle associated with the Public Assistance Grant Program
and the Fire Management Assistance Grant Program. It is also designed to interface with other
government entities and grant and sub-grant applicants (e.g., states and localities). EMMIE provides
functionality for public entities and private-non-profit entities to create and submit grant applications and
for FEMA users to review and award applications, generate and review relevant mission critical reports,
process amendments, and conduct close-out activities. Interfaces exist between the EMMIE system,
IFMIS, and ISAAC. EMMIE is located in VA.



                                                     16

                                                                                           Appendix A

                                   Department of Homeland Security
                        Consolidated Information Technology Management Letter
                                          September 30, 2013


Emergency Support (ES)

ES is an internal FEMA application for pre-processing disaster-related financial transactions, including
allocation, commitment, obligation, mission assignment, and payment requests from other internal and
external systems. ES serves as the primary interface to IFMIS. It also allows FEMA users to process
disaster housing payments, perform payment recoupment, and conduct other administrative tasks. In
addition to IFMIS, ES has interfaces to several other FEMA systems, including:

    x	 ISAAC (organizational and personnel data and team setup);
    x	 Emergency Coordination (incident and disaster declarations);
    x	 Enterprise Coordination and Approvals Processing System (commitment and mission assignment
       [obligation] requests);
    x	 Hazard Mitigation Grants Program (allocation and obligation requests);
    x	 Individual Assistance (payment and recoupment requests);
    x	 Public Assistance (obligation and allocation requests);
    x	 Automated Deployment Database (personnel data);
    x	 Assistance to Firefighters Grants (obligation, invoice, and vendor requests);
    x	 EMMIE (obligation requests);
    x	 Mitigation Electronic Grants Management System (obligation requests); and
    x	 CCTMS (expenditure requests).

ES is located in Virginia.

Traverse

Traverse is the general ledger application currently used by the National Flood Insurance Program (NFIP)
Bureau and Statistical Agent to generate the NFIP financial statements. Traverse is a client-server
application that runs on the NFIP Local Area Network (LAN) Windows server environment located in
Maryland (MD). The Traverse client is installed on the desktop computers of the NFIP Bureau of
Financial Statistical Control group members and interfaces with a Microsoft Structured Query Language
database hosted on an internal segment of the NFIP LAN. Traverse has no known external system
interfaces.

Transaction Recording and Reporting Processing (TRRP)

The TRRP application acts as a central repository of all data submitted by the Write Your Own (WYO)
companies and the Direct Servicing Agent (DSA) for the NFIP. TRRP also supports the WYO program,
primarily by ensuring the quality of financial data submitted by the WYO companies and DSA to TRRP.
TRRP is a mainframe-based application that runs on the NFIP mainframe logical partition in Connecticut.
TRRP has no known system interfaces.

                                                   17

                                                                                               Appendix A

                                   Department of Homeland Security
                        Consolidated Information Technology Management Letter
                                          September 30, 2013


Federal Law Enforcement Training Center (FLETC)

Financial Accounting and Budgeting System (FABS)

The FLETC FABS application (also referred to as Momentum) is an all-in-one financial processing
system. It functions as the computerized accounting and budgeting system for FLETC. FLETC provides
financial management services to the Office of Intelligence and Analysis and the Office of Operations
Coordination and Planning (IA&OPS) through a separately hosted Momentum environment, which was
developed to mirror the FLETC Momentum environment. The FABS system exists to provide all of the
financial and budgeting transactions in which FLETC is involved. FABS system users are from all
FLETC sites that input requisitions and managers that approve receipt of property and manage the
property asset records and financial records for contracts, payments, payroll, and budgetary transactions.
Hosted on a Microsoft Server 2003 and Oracle Linux Server, the FABS application (Oracle Web Logic)
and database (Oracle 10g) servers reside on the FLETC Glynco Administrative Network (GAN) in a
Hybrid physical network topology and are accessible from four sites: Georgia (GA), DC, New Mexico,
and MD. The system owner and responsible office is the Finance Division Chief in the FLETC OCFO.

Glynco Administrative Network (GAN)

The purpose of GAN is to provide access to IT network applications and services to include video and
voice teleconferencing to authorized FLETC personnel, contractors and partner organizations located at
the Georgia facility. It provides authorized users access to email, internet services, required applications
such as Financial Management Systems, Procurement systems, Property management systems, Video
conference, and other network services and shared resources. The GAN is located in GA and is owned
and operated by the FLETC OCIO.

United States Immigration and Customs Enforcement (ICE)

Federal Financial Management System (FFMS)

The FFMS is a CFO designated financial system and certified software application that conforms to OMB
Circular A-127 and implements the use of a Standard General Ledger for the accounting of agency
financial transactions. It is used to create and maintain a record of each allocation, commitment,
obligation, travel advance and accounts receivable issued. It is the system of record for the agency and
supports all internal and external reporting requirements. FFMS is a COTS financial reporting system,
which has an IBM z/OS operating system and an Oracle database. It includes the core system used by
accountants, FFMS Desktop that is used by average users, and a National Finance Center payroll
interface. The FFMS mainframe component and servers are hosted at DC-2 in VA. The ICE OCIO is
responsible for FFMS.

ICE Network (ADEX)

The ICE Network, also known as the ADEX E-mail System, is a major application for ICE. The ADEX
servers and infrastructure for the headquarters and National Capital Area are located in MS and VA.
ADEX currently interfaces with the Diplomatic Telecommunications Service Program Office ICENet
Infrastructure.

                                                    18

                                                                                            Appendix A

                                  Department of Homeland Security
                       Consolidated Information Technology Management Letter
                                         September 30, 2013


Transportation Security Administration (TSA)

Core Accounting System (CAS)

CAS is the core accounting system that records financial transactions and generates financial statements
for TSA. CAS is hosted at the Coast Guard’s FINCEN in VA. CAS interfaces with other systems located
at the FINCEN, including the Financial Procurement Desktop (FPD) and Sunflower. CAS is used by
financial management individuals as CAS is the main system of record for financial information. CAS is
comprised of an HP UNIX operating system and an Oracle database.

Financial Procurement Desktop (FPD)

The FPD application is used to create and post obligations to the core accounting system. It allows users
to enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD interfaces with the CAS
system and is hosted at the FINCEN in VA. FPD is comprised of an HP UNIX operating system and an
Oracle database.

Sunflower

Sunflower is a customized third-party COTS product used for TSA and Federal Air Marshal Service
property management. Sunflower interacts directly with the Office of Finance Fixed Assets module in
CAS and interfaces with the FPD system. Sunflower is hosted at the FINCEN in VA. Sunflower is
comprised of a Red Hat Linux operating system and an Oracle database.

Electronic Time Attendance and Scheduling (eTAS)

eTAS is an automated and standardized labor management solution. The system provides an automated
means to schedule employee work and leave hours, record hours worked and not worked, and provide bi-
weekly time records to TSA’s payroll provider, the NFC. The system automates the workforce
management process to reduce the amount of time, effort, and associated cost required for entry of data.
eTAS is comprised of a Windows 2003 operating system and an Oracle database, and is located at DC-2
in VA. The Office of Human Capital is responsible for eTAS.




                                                   19

                      Department of Homeland Security
           Consolidated Information Technology Management Letter
                             September 30, 2013




                             Appendix B 

FY 2013 IT Notices of Findings and Recommendations at DHS 





                                    20

                                                                                                                                   Appendix B

                                                     Department of Homeland Security
                                          Consolidated Information Technology Management Letter
                                                            September 30, 2013


                   DHS Headquarters (Office of Financial Management / Office of the Chief Information Officer)

FY 2013 NFR #                                        NFR Title                                         FISCAM Control Area    New     Repeat
                                                                                                                              Issue    Issue
CONS-IT-13-01   Security Awareness Issues Identified during After-Hours Physical Security Testing at    Security Management             X
                DHS
OCIO-IT-13-01   Inadequate Recertification of DC-2 Physical Access                                        Access Controls               X
OCIO-IT-13-02   Backup Log Rotation Not Consistently Performed                                         Contingency Planning    X
OCIO-IT-13-03   Inadequate Recertification of DHS Enterprise Data Center 1 Physical Access                Access Controls      X




                                                                        21

                                                                                                                                              Appendix B

                                                           Department of Homeland Security
                                                Consolidated Information Technology Management Letter
                                                                  September 30, 2013


                                                             Customs and Border Protection

    FY 2013 NFR #1                                         NFR Title                                         FISCAM Control Area         New     Repeat
                                                                                                                                         Issue    Issue
     CBP-IT-13-01     Inappropriately Configured Password Parameters for SAP UNIX Operating System               Access Controls          X
                      (OS)
     CBP-IT-13-02     Audit Activity Logs Not Reviewed for SAP Oracle Database (DB)                              Access Controls                   X
     CBP-IT-13-03     Lack of Review of SAP Windows OS Accounts                                                  Access Controls                   X
     CBP-IT-13-04     Incomplete SAP UNIX OS Backups                                                          Contingency Planning        X
     CBP-IT-13-05     Lack of Evidence of Review of SAP UNIX OS Audit Logs                                       Access Controls          X
     CBP-IT-13-06     Lack of Review of ACS Application Audit Logs                                               Access Controls                   X
     CBP-IT-13-07     Security Awareness Issues Identified during After-Hours Physical Security Testing at     Security Management                 X
                      CBP
     CBP-IT-13-08     Lack of Review of Developer Access to the ACS Production Application Data                  Access Controls                   X
     CBP-IT-13-09     Inappropriately Configured ACE AIX OS Password Parameters                                  Access Controls          X
     CBP-IT-13-10     Inappropriately Configured ACE DB2 Database Password Parameters                            Access Controls          X
     CBP-IT-13-11     Lack of Functionality in the ACS                                                       Business Process Controls             X
     CBP-IT-13-12     Lack of Review of ACE DB2 Database Accounts                                                Access Controls          X
     CBP-IT-13-13     Lack of Annual Recertification of Mainframe Privileged Users                               Access Controls                   X




1
    NFR numbers CBP-IT-13-15, CBP-IT-13-21, CBP-IT-13-26, CBP-IT-13-27 and CBP-IT-13-32 were intentionally omitted from sequence.


                                                                              22

                                                                                                                             Appendix B

                                                    Department of Homeland Security
                                         Consolidated Information Technology Management Letter
                                                           September 30, 2013


FY 2013 NFR #                                       NFR Title                                    FISCAM Control Area    New     Repeat
                                                                                                                        Issue    Issue
CBP-IT-13-14    Incomplete Raised Floor Visitors Logs                                               Access Controls      X
CBP-IT-13-16    Weaknesses in Creating New DC Metro LAN Accounts                                    Access Controls               X
CBP-IT-13-17    Separated Personnel on SAP Application User Listing                                 Access Controls               X
CBP-IT-13-18    Weaknesses in Creating New ACE Accounts                                             Access Controls               X
CBP-IT-13-19    Weaknesses in Creating New ACS Accounts                                             Access Controls               X
CBP-IT-13-20    SAP Configuration Baseline Weaknesses                                        Configuration Management    X
CBP-IT-13-22    Separated Personnel on Mainframe User Listing                                       Access Controls               X
CBP-IT-13-23    Weaknesses in Documenting New ACE User Accounts in the Development and       Configuration Management    X
                Testing Environments
CBP-IT-13-24    ACS Segregation of Duties Weaknesses over the Production Environment                Access Controls               X
CBP-IT-13-25    Lack of Unique Account Identifiers for ACS                                          Access Controls      X
CBP-IT-13-28    ACS Application Recertification Weaknesses                                          Access Controls      X
CBP-IT-13-29    Audit Activity Logs Not Generated or Reviewed for SAP Windows OS                    Access Controls      X
CBP-IT-13-30    Separated Personnel on DC Metro LAN User Listing                                    Access Controls               X
CBP-IT-13-31    Separated Personnel on ACE Application User Listing                                 Access Controls               X
CBP-IT-13-33    Contractor Separation Process Weaknesses                                          Security Management             X
CBP-IT-13-34    Weaknesses over the Employee Separation Process                                   Security Management             X




                                                                      23

                                                                                                                                       Appendix B

                                                     Department of Homeland Security
                                          Consolidated Information Technology Management Letter
                                                            September 30, 2013


                                                          United States Coast Guard

FY 2013 NFR #                                        NFR Title                                          FISCAM Control Area       New     Repeat
                                                                                                                                  Issue    Issue
 CG-IT-13-01    Lack of Consistent Contractor, Civilian, and Military Account Termination                  Access Controls                  X
                Notification Process for Coast Guard Systems
 CG-IT-13-02    Weakness in Direct Access Audit Logs and Segregation of Duties                             Access Controls                  X
 CG-IT-13-03    Weakness in Direct Access Annual User Recertification                                      Access Controls                  X
 CG-IT-13-04    Security Awareness Issues Identified During Social Engineering Testing at Surface        Security Management                X
                Forces Logistics Center
 CG-IT-13-05    Security Awareness Issues Identified during After-Hours Physical Security Testing at     Security Management                X
                the Surface Forces Logistics Center, OSC, ALC, and FINCEN
 CG-IT-13-06    Access and Configuration Management Controls - Vulnerability Assessment                Configuration Management             X
 CG-IT-13-07    Weakness in JUMPS Annual User Recertification                                              Access Controls         X
 CG-IT-13-08    Weakness in NESSS Annual User Recertification                                              Access Controls                  X




                                                                        24

                                                                                                                                       Appendix B

                                                     Department of Homeland Security
                                          Consolidated Information Technology Management Letter
                                                            September 30, 2013


                                            United States Citizenship and Immigration Services

FY 2013 NFR #                                        NFR Title                                          FISCAM Control Area       New     Repeat
                                                                                                                                  Issue    Issue
 CIS-IT-13-01   Security Awareness Issues Identified During Social Engineering Testing at USCIS          Security Management                X
 CIS-IT-13-02   Deficiencies in transferred/terminated employee exit processing                            Access Controls                  X
 CIS-IT-13-03   Security Awareness Issues Identified during After-Hours Physical Security Testing at     Security Management                X
                USCIS
 CIS-IT-13-04   Weakness in CIS1 Password Complexity                                                       Access Controls         X
 CIS-IT-13-05   FFMS Vulnerability Weaknesses Impact USCIS Operations                                  Configuration Management             X




                                                                        25

                                                                                                                                            Appendix B

                                                         Department of Homeland Security
                                              Consolidated Information Technology Management Letter
                                                                September 30, 2013


                                                      Federal Emergency Management Agency

    FY 2013 NFR #                                        NFR Title                                         FISCAM Control Area(s)      New       Repeat
                                                                                                                                       Issue      Issue
    FEMA-IT-13-01   Non-Compliance with Alternate Processing Site Requirements for Key Financial             Contingency Planning                  X
                    Systems
    FEMA-IT-13-02   Insufficient Audit Log Controls for Key Financial Systems                                  Access Controls                     X
    FEMA-IT-13-03   Inconsistent Implementation of DHS Background Investigation Requirements for             Security Management                   X
                    FEMA Federal Employees and Contractors
    FEMA-IT-13-04   Incomplete Implementation of Role-Based Training for Individuals with Significant        Security Management                   X
                    Information Security Responsibilities
    FEMA-IT-13-05   Non-Compliant Security Authorization Package for NDGrants                                Security Management                   X
    FEMA-IT-13-06   Non-Compliance with DHS and FEMA Password Requirements for Oracle Databases                Access Controls                     X
                    Supporting Certain Financial Applications
    FEMA-IT-13-07   Incomplete Exception Request for Password Controls on Oracle Databases Supporting        Security Management2                  X
                    Certain Financial Applications
    FEMA-IT-13-08   Security Awareness Issues Identified during After-Hours Physical Security Testing at     Security Management                   X
                    FEMA
    FEMA-IT-13-09   Weaknesses Identified during the Vulnerability Assessment on IFMIS                         Access Controls;                    X
                                                                                                           Configuration Management
    FEMA-IT-13-10   Weaknesses Identified during the Vulnerability Assessment on the NFIP LAN                   Access Controls;                   X
                                                                                                           Configuration Management




2
 NFR FEMA-IT-13-07 was reported in conjunction with FEMA-IT-13-06 as part of GITC deficiencies related to access controls in our Independent Auditors’
Report dated December 11, 2013.

                                                                            26

                                                                                                                                       Appendix B

                                                     Department of Homeland Security
                                          Consolidated Information Technology Management Letter
                                                            September 30, 2013


FY 2013 NFR #                                        NFR Title                                         FISCAM Control Area(s)     New     Repeat
                                                                                                                                  Issue    Issue
FEMA-IT-13-11   Weaknesses Identified during the Vulnerability Assessment on Financially Significant   Configuration Management             X
                Segments of the FEMA Enterprise Network and End-User Computing Environment
FEMA-IT-13-12   Weaknesses Identified during the Vulnerability Assessment on EMMIE                     Configuration Management             X
FEMA-IT-13-13   Weaknesses Identified during the Vulnerability Assessment on NDGrants                       Access Controls;                X
                                                                                                       Configuration Management
FEMA-IT-13-14   Non-Compliant Security Authorization Package for ES                                      Security Management                X
FEMA-IT-13-15   Lack of Controls to Validate Completeness and Integrity of Changes Deployed to         Configuration Management             X
                Production for EMMIE, NDGrants, and ES
FEMA-IT-13-16   Incomplete Account Management Documentation for the EMMIE Application                      Access Controls         X
FEMA-IT-13-17   Incomplete Account Management Documentation for NDGrants                                   Access Controls                  X
FEMA-IT-13-18   Incomplete Account Management Documentation for ES                                         Access Controls                  X
FEMA-IT-13-19   Excessive or Inappropriate Access to IFMIS                                                 Access Controls;                 X
                                                                                                         Segregation of Duties
FEMA-IT-13-20   Lack of EMMIE System Owner Approval for Database Accounts                                  Access Controls                  X
FEMA-IT-13-21   Lack of ES System Owner Approval for Database Accounts                                     Access Controls                  X
FEMA-IT-13-22   Lack of NDGrants System Owner Approval for Database Accounts                               Access Controls                  X
FEMA-IT-13-23   Inconsistent Authorization of New and Modified IFMIS Application User Access               Access Controls                  X
FEMA-IT-13-24   Lack of Adequate Configuration Management over Network Devices Supporting              Configuration Management             X
                Financial Systems
FEMA-IT-13-25   Inconsistent Activities and Incomplete Documentation Supporting Configuration          Configuration Management             X
                Changes for the IFMIS Application




                                                                        27

                                                                                                                                 Appendix B

                                                    Department of Homeland Security
                                         Consolidated Information Technology Management Letter
                                                           September 30, 2013


FY 2013 NFR #                                       NFR Title                                    FISCAM Control Area(s)     New     Repeat
                                                                                                                            Issue    Issue
FEMA-IT-13-26   Inconsistent Review of IFMIS Audit Logs                                              Access Controls                  X
FEMA-IT-13-27   Lack of Controls to Validate Completeness and Integrity of Changes Deployed to   Configuration Management             X
                Production for the IFMIS Production Environment
FEMA-IT-13-28   Non-Compliant Security Authorization Package for IFMIS                             Security Management       X




                                                                       28

                                                                                                                                Appendix B

                                                     Department of Homeland Security
                                          Consolidated Information Technology Management Letter
                                                            September 30, 2013


                                              Federal Law Enforcement Training Center 

                                         and Intelligence & Analysis and Operations (IA&OPS) 


FY 2013 NFR #                                       NFR Title                                     FISCAM Control Area      New     Repeat
                                                                                                                           Issue    Issue
FLETC-IT-13-01   FLETC Momentum Audit Log Reviews not Consistently Maintained                        Access Controls        X
FLETC-IT-13-02   Weakness in GAN Password Complexity                                                 Access Controls        X
FLETC-IT-13-03   FLETC Momentum Account Management not Consistently Performed                        Access Controls        X
FLETC-IT-13-04   Momentum Application Inactivity Lockout is not Appropriately Configured             Access Controls        X
FLETC-IT-13-05   FLETC Contractor Separation not Fully Monitored                                     Access Controls        X
IAOPS-IT-13-01   IA&OPS Momentum Audit Log Reviews not Consistently Performed in a Timely            Access Controls        X
                 Manner
IAOPS-IT-13-02   IA&OPS Segregation of Duties not Fully Enforced                                   Segregation of Duties    X
IAOPS-IT-13-03   IA&OPS Momentum Account Management not Consistently Performed                       Access Controls                 X
IAOPS-IT-13-04   Momentum Application Inactivity Lockout is not Appropriately Configured             Access Controls        X
IAOPS-IT-13-05   IA&OPS Contractor Separation not Fully Monitored                                    Access Controls        X
IAOPS-IT-13-06   Multiple Payment Vouchers can be Processed Against the Same Invoice          Business Process Controls     X




                                                                      29

                                                                                                                                       Appendix B

                                                     Department of Homeland Security
                                          Consolidated Information Technology Management Letter
                                                            September 30, 2013


                                          United States Immigration and Customs Enforcement

FY 2013 NFR #                                        NFR Title                                          FISCAM Control Area       New     Repeat
                                                                                                                                  Issue    Issue
 ICE-IT-13-01   Weakness in FFMS Backup Documentation                                                    Contingency Planning      X
 ICE-IT-13-02   Security Awareness Issues Identified during After-Hours Physical Security Testing at     Security Management                X
                ICE
 ICE-IT-13-03   Weakness in FFMS Segregation of Duties Relating to IT Functions                          Segregation of Duties     X
 ICE-IT-13-04   Weakness in implementation of procedures for transferred/terminated employee and           Access Controls                  X
                contractor exit processing
 ICE-IT-13-05   Inadequate FFMS User Access Request Forms                                                  Access Controls                  X
 ICE-IT-13-06   FFMS network and servers were installed with default configuration settings and        Configuration Management             X
                protocols
 ICE-IT-13-07   FFMS Mainframe Production databases were installed and configured without baseline     Configuration Management             X
                security configurations
 ICE-IT-13-08   FFMS servers have inadequate patch management                                          Configuration Management             X
 ICE-IT-13-09   Weakness in ADEX Password Complexity                                                       Access Controls         X




                                                                        30

                                                                                                                                  Appendix B

                                                     Department of Homeland Security
                                          Consolidated Information Technology Management Letter
                                                            September 30, 2013


                                               National Protection and Programs Directorate

FY 2013 NFR #                                        NFR Title                                         FISCAM Control Area    New     Repeat
                                                                                                                              Issue    Issue
NPPD-IT-13-01   Security Awareness Issues Identified During Social Engineering Testing at NPPD          Security Management             X
NPPD-IT-13-02   Security Awareness Issues Identified during After-Hours Physical Security Testing at    Security Management             X
                NPPD




                                                                        31

                                                                                                                                                 Appendix B

                                                          Department of Homeland Security
                                               Consolidated Information Technology Management Letter
                                                                 September 30, 2013


                                                        Transportation Security Administration

    FY 2013 NFR #                                         NFR Title                                            FISCAM Control Area          New       Repeat
                                                                                                                                            Issue      Issue
    TSA-IT-13-01     Weakness in eTAS user recertification                                                         Access Controls                       X
    TSA-IT-13-02     Weakness in eTAS password complexity                                                          Access Controls                       X
    TSA-IT-13-03     Weakness in eTAS Restoration Testing of Backups                                            Contingency Planning                     X
    TSA-IT-13-04     Weakness in eTAS review of audit logs                                                         Access Controls                       X
    TSA-IT-13-05     eTAS System User Access                                                                       Access Controls                       X
    TSA-IT-13-06     Security Awareness Issues Identified During Social Engineering Testing at TSA              Security Management                     X3
                     Headquarters
    TSA-IT-13-07     Physical Security and Security Awareness Issues Identified During After Hours              Security Management                     X3
                     Testing at TSA Headquarters




3
 FY 2012 NFR TSA-IT-12-01 was split into two findings for FY 2013 to report separately on the results of each set of enhanced information security testing
procedures performed at TSA.

                                                                             32

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Chief Financial Officer
   Chief Information Officer
   Chief Information Security Officer
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-14-94
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
